No. 18-2608

ADDISON THOMPSON, Pro Se
Petitioner
V.

United States of America,
United States Postal Service,
Station Manager
Respondent

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI
Pro Se Petitioner:
Addison Thompson
addthomp@mail. com
255 East 7 Street #2
New York NY 10009
212-475-0010
Council for Respondent:
Rachael Doud
rdoud@usa.doj. gov
Assistant US Attorney
Southern District of NY

received
MAR 10 2020

'
I

\

QUESTIONS PRESENTED
In 2014, a photographic mural project was destroyed during the
relocation of the Peter Stuyvesant United States Postal Service
(USPS), New York. The USA/USPS was granted sovereign
immunity and dismissal of the Visual Artists' Rights (VARA)
case by a misinterpretation of the word "State" in the Copyright
Law.
At the hearing in 2017, Honorable Judge Katherine Polk Failla,
instituted a process for the proper exhaustion of the claim, to
allow the artist to recreate and reinstall his murals. The USPS is
authorized to enter into an agreement with the copyright owner
in full settlement and for the damages accruing to him by reason
of such infringement (or destruction) and to settle the claim
administratively out of available appropriations.
1. The Constitution mandates Congress to grant artists' the
rights to their work. So why is the USA immune from
violating an artists' "exclusive rights", when "anyone" who
violates these rights, is liable?
2. Is the word "State", in the definitions section of the Copyright
Act, limited to the States of the United States, the District of
Columbia and Puerto Rico or does it mean any governmental
"State"?
3. If this misinterpretation of the word "State" is corrected
would Plaintiff pass the two-part test? The legal test to
determine whether sovereign immunity applies is (1)
"whether there is a waiver of sovereign immunity for actions
against the" United States or the agency in question and (2)
whether the substantive provisions of the federal statute
apply to the United States or the agency in question.
4. Why was there no new hearing, for the USPS to explain why
they changed their mind, about permitting the artist to
recreate and install his murals at Peter Cooper USPS, NYC,
in full settlement of his VARA claim and as a proper
exhaustion of the claim?

n
PARTIES TO THE PROCEEDINGS
Petitioner Addison Thompson was Pro Se Plaintiff and
Appellant below.
Respondent was Ms. Rachael L. Doud, Assistant United
States Attorney, on the brief), for Geoffrey S. Berman, United
States Attorney for the Southern District of New York, New
York NY, for Defendants-Appellees, United States Postal
Service, Station Manager below.

RULE 29.6 DISCLOSURE
Not Applicable.

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDINGS

li

RULE 29.6 DISCLOSURE

n

TABLE OF CONTENTS
TABLE OF AUTHORITIES
STATUTES

in

1
1-2

PETITION FOR A WRIT OF CERTIORARI

2

OPINIONS BELOW

2

JURISDICTION

2

CONSTITUTIONAL & STATUATORY PROVISIONS

2

STATEMENT OF THE CASE
REASONS FOR GRANTING THE PETITION
1. MISINTERPRETATION OF THE MEANING OF
THE WORD "STATE" IN THE COPYRIGHT ACT
A DEFINITION OF THE WORD "STATE" FROM THE
COPYRIGHT ACT.
B. "ANYONE" IS IN VIOLATION OF THESE "EXCLUSIVE
RIGHTS"
C. TWO STEP INQUIRY: DECIDING WHETHER THE USA
OR ITS" AGENCIES ARE LIABLE UNDER FEDERAL
STAUTE

3-4
4-11

IV.

2. ESTABLISHING PROPER FEDERAL DISTRICT COURT
JURISDICTION FOR ANY VARA CASE
A. COPYRIGHT INFRINGEMENT VS. DESTRUCTION OF
PUBLIC ART
B. FEDERAL DISTRICT COURT JURISDICTION
3. HONORABLE JUDGE KATHERINE POLK FAILLA,
FEDERAL DISTRICT COURT JUDGE, INITIATED AN
ADMINISTRATIVE SOLUTION TO EXHAUST THE CLAIM
VIA PERMITTING ARTIST TO RECREATE & REINSTALL
THE MURALS AT PETER COOPER USPS, NYC
A REQUEST AND AGREEMENT TO EXHAUST THE CLAIM
B. 28 US CODE 1498
C. AN ADMINISTRATIVE SOLUTION TO RESOLVING THE
CLAIM IS INSTITUTED
D. WITHOUT REASON USPS DENYS THE ARTIST
REQUEST TO RECREATE & REINSTALL HIS WORK
E. JUDGE KP ACCEPTS THE FEDERAL CLAIM OF
SOVEREIGN IMMUNITY WITH NO NEW HEARING
4 ADA DISCRIMINATION
A THE USPS DESTROYED THE ONLY PUBLIC ART BY A
COMMUNITY BASED ARTIST WITH A MENTAL
DISABILITY
B. PLAINTIFF IS ENTITLED TO PARTICIPATE AND NOT BE
DENIED THE BENEFITS OF ANY PROGRAM OR ACTIVITY
CONDUCTED BY THE USPS
CONCLUSION (AT END OF EACH ITEM)

V

V.

APPENDIX
APPENDIX A: COURT OF APPEALS: SUMMARY ORDER

1-12

APPENDIX B: DISTRICT COURT OPINION & ORDER

1-23

APPENDIX C: DISTRICT COURT ORDER

1

APPENDIX D: COURT OF APPEALS DENIAL OF PETITION

1

1
TABLE OF AUTHORITIES
Crimi v. Rutgers Presbyterian Church. 1949 (included in text of
section X. Simila r Case of Law, below)
Carter v. Helmslev-Snear. Inc.. 861 F. Supp. 303 (S.D.N.Y.
1994) rev'd 71 F. 3d 77 (2d Cir. 1995)
Twitchell v. West Coast General Corn., et. al.. Central District of
California, Case No. 2:06-cv-04857-(FMC) RZx
Martin v. City of Indianapolis. 192 F. 3d 608, 612 (7th Cir.
1999)
Cohen v. G&M Realty L.P.. 2017 U.S. District LEXIS 50943
Haines v. Kerner. Et Al, 404 U.S. 519 (1972)
STATUTES
ADA, Rehabilitation Act, 1990, Title III: Public
Accommodations
ADA, Rehabilitation Act, 1990, Section 504
17 U.S. Code § 106 - Exclusive rights in copyrighted works
17 U.S. Code § 106A - Rights of certain authors to
attribution and integrity
17 U.S. Code § 113 - Scope of exclusive rights in pictorial,
graphic, and sculptural works
17 U.S. Code § 501 - Infringement of copyright 28
U.S. Code §171 - Tort Claims Procedure

2
28 U.S. Code § 1331 - Federal Question
28 U.S. Code § 1346 - United States as defendant 28
U.S. Code § 2674 - Liability of United States
FTCA is codified in 28 U.S.C. § 1346(b), § 1402(b), §2401(b), and
§2671-2680.
PETITION FOR A WRIT OF CERTIORARI
Addison Thompson, Pro Se Plaintiff, Photographer, respectfully
petitions for a writ of certiorari to review the judgement of the
U.S. Federal District Court of Appeals, Southern District of New
York in this matter.
OPINIONS BELOW
The decision of the court of appeals is reported at 18-2608 is
reprinted in the Appendix at. The district court’s opinion is
reported at 17-5017 (KPF)
JURISDICTION
The Court of Appeals entered its final judgement on
11/22/2019. This Court has Jurisdiction under 28 USC
1254(1).
CONSTITUTIONAL & STATUTORY PROVISIONS
Clause 8, in Section 8, found in Article 1 of the United
States Constitution (The Copyright Clause)

3

STATEMENT OF THE CASE
In 2013, Plaintiff followed the procedure posted in the Peter
Stuyvesant USPS and wrote to Joseph Mulvey, USPS East
Coast Facilities Manager, about the removal of his mural
project. In 2014, Plaintiff wrote a second letter and was finally
invited to come get the murals. Without contacting Plaintiff with
90 days notice, the murals had been removed, destroyed with
parts missing; from the artwork. Plaintiff refused to take the
artwork because the USPS owed him a duty-of-care not to
destroy his art of a recognized stature.
In 2015, Plaintiff proposed an alternative artwork for the new
14th Street USPS Service Center. The USPS told Plaintiff they
didn't want anymore of his artwork and ceased communication.
Plaintiff didn't bring a formal complaint, until 2017, meanwhile
continuing communication hoping the USPS would admit their
mistake and resolve the issue of the destroyed mural project.
Plaintiffs’ filing of the complaint, is well within the 3-year
Statute of Limitations, for violations of Copyright Law.
At the hearing, in keeping with 28 US Code 1498, Honorable
Federal Court Judge, Katherine Polk Failla requested that
Rachael Doud, Assistant US Attorney, facilitate communications
with the USPS. For artists' fees and expenses, the artist offered
to recreate, consolidate and reinstall his mural project in a single
location; the Peter Cooper USPS Station NYC. During the
following 2 months, the artist communicated his designs and
plans with Judge KPF and Ms. Doud, Asst. US Attorney. After 2
months, with no problems and without reason, the USPS rejected
the artists' plans to reinstall the murals.

4

In fact, the word "State", in the Definitions section of the
Copyright Law means any governmental entity; including the
USA, any State of the United States or any Foreign State.
"Anyone" is liable, in violation, of these "exclusive rights", as
mandated by (The Copyright Clause) Clause 8, in Section 8, found
in Article 1 of the United States Constitution and enacted into
legislation by the US Congress.
REASON’S FOR GRANTING THIS PETITION
This Court should grant the petition and reverse the Court
below.
1. MISINTERPRETATION OF THE MEANING OF
THE WORD "STATE" IN THE COPYRIGHT ACT

A. DEFINITION OF THE WORD "STATE" FROM THE
COPYRIGHT ACT.
The Copyright Act provides that the definition of the word
"State“ includes the District of Columbia and the
Commonwealth of Puerto Rico, and anv territories to
which this title is made applicable bv an Act of
Congress.” 17 U.S.C. § 101, including the District of Columbia
and the Commonwealth of Puerto Rico.
The States of the United States are not the only territories,
meant to be included in this Act of Congress. The territories
specified by this Act use the word, "State", to specify any
governmental entity; like the Federal Government, a State
of the United States or a foreign state.

5
The confused meaning of the word "State", continues in the
misinterpretation of 17 USC 511. Here again, "State" means
all governmental entities, including the USA.
17 USC § 511 Liability of States, instrumentalities of
States, and State officials for infringement of copyright
(a) In General.—Any State, any instrumentality of a State, and any
officer or employee of a State or instrumentality of a State acting
in his or her official capacity, shall not be immune, under the
Eleventh Amendment of the Constitution of the United States or
under any other doctrine of sovereign immunity, from suit in
Federal court bv anv person, including anv governmental or
nongovernment entity, for a violation of anv of the exclusive rights
of a copyright owner provided bv sections 106 through 122. for
importing copies of phonorecords in violation of section 602, or for
any other violation under this title.
(b) Remedies.—In a suit described in subsection (a) for a violation
described in that subsection, remedies (including remedies both at
law and in equity) are available for the violation to the same
extent as such remedies are available for such a violation in a suit
against any public or private entity other than a State,
instrumentality of a State, or officer or employee of a State acting
in his or her official capacity. Such remedies include impounding
and disposition of infringing articles under section 503. actual
damages and profits and statutory damages under section 504.
costs and attorney's fees under section 505. and the remedies
provided in section 510.

6

B. "ANYONE” IS IN VIOLATION OF THESE "EXCLUSIVE
RIGHTS"
"Anyone" violates these exclusive rights. Means everyone;
all governmental "states", to the same extent as, non­
governmental entities.

17 USC 501(a)
Anyone who violates any of the exclusive rights of the copyright
owner as provided by sections 106 through 122 of the author as
provided in section 106A(a). or who imports copies or
phonorecords into the United States in violation of section 602, is
an infringer of the copyright or right of the author, as the case
may be. For purposes of this chapter (other than section 506), any
reference to copyright shall be deemed to include the rights
conferred by section 106A(a).
As used in this subsection, the term “anyone” includes any
State, anv instrumentality of a State, and any officer or
employee of a State or instrumentality of a State acting in
his or her official capacity. Anv State, and anv such
instrumentality, officer, or employee, shall be subject to the
provisions of this title in the same manner and to the same
extent as anv nongovernmental entity.
C. TWO STEP INQUIRY: DECIDING WHETHER THE
USA OR ITS" AGENCIES ARE LIABLE UNDER
FEDERAL STAUTE
In deciding whether the United States or its agencies are
liable under a federal statute, courts conduct a two-step
inquiry. Quoted below the Appeals Court decision makes the
same misinterpretation in its' decision and order:

7
(1) "whether there is a waiver of sovereign immunity for actions
against the" United States or the agency in question and (2)
whether the substantive provisions of the federal statute apply to
the United States or the agency in question. USPS v. Flamingo
Indus. (USA) Ltd., 540 U.S. 736, 743 (2004).
At the first step, the district court correctly determined that the
USPS has waived sovereign immunity. See 39 U.S.C. § 401(1);
Flamingo, 540 U.S. at 744. Nevertheless, as the district court
determined, VARA does not apply to the government or its
agencies bv the plain language of its liability provision. See 17
U.S.C. § 501(a) (defining "anyone" to include state entities but
fading to mention federal entities)."
CONCLUSION
The decision and order suggest that the word means a "State"
of the United States, not a governmental "State". This conflicts
with the Copyright law definition and Congress' intention. The
word "State" means "Any State shall be subject to these
provisions of this title in the same manner and [BECAUCE BY
CONTRAST] to the same extent as any nongovernmental
entity."
2. ESTABLISHING PROPER FEDERAL DISTRICT
COURT JURISDICTION FOR A VARA CASE
A. COPYRIGHT INFRINGEMENT VS. DESTRUCTION OF
PUBLIC ART
Destruction of a work of recognized stature is not copyright
infringement. Protections under the Visual Artist's Rights Act
(VARA) last only during the life of the artist. This is because they
are designed to protect the artist’s reputation. This contrasts with
the rights provided under the Copyright Act, which last for 70
years after the death of the copyright owner.

8
Copyright infringement is the act of violating any of a
copyright owners’ exclusive rights granted by the federal
Copyright Act. There are three elements that must be in
place in order for the infringement to occur.
1.The copyright holder must have a valid copyright.
2. The person who is allegedly infringing must have
access to the copyrighted work.
3. The duplication of the copyrighted work must be outside the
exceptions.
B. FEDERAL DISTRICT COURT JURISDICTION
Copyright infringement cases are adjudicated in the U.S. Court of
Claims, a court of equity, with strict limits on actual or statutory
money damages, which allows no trial bv jury. The U.S. Supreme
Court holds that the Seventh Amendment preserves the right to a
jury trial as to a determination of liability for violating a federal
statute and for a determination of statutory damages.
The Federal district court in Twitchell, initiated a mistaken
interpretation of the word "State". The Twitchell court allowed
the USA's claim for sovereign immunity; but then under
California State Law, the USA still had to pay, for the
destruction of his public art mural project. This
misinterpretation has acted as a legal barrier, to shield all
future VARA cases against the USA, by its' sovereign immunity.
CONCLUSION
Copyright Law guarantees a trial by jury in cases involving
statutory damages. A VARA case for destruction of art of a
recognized stature is not a copyright infringement case. It
involves tort law and a complex legal determination to qualify;
as public art of a recognized stature. All VARA cases are
adjudicated in Federal District Court.

9
3. HONORABLE JUDGE KATHERINE POLK FAILLA,
FEDERAL DISTRICT COURT JUDGE, INITIATED AN
ADMINISTRATIVE SOLUTION TO EXHAUST THE
CLAIM VIA PERMITTING ARTIST TO RECREATE &
REINSTALL THE MURALS AT PETER COOPER
USPS, NYC
A REQUEST AND AGREEMENT TO EXHAUST THE
CLAIM
At our hearing, Judge KPF asked Rachael Doud, Federal
Defense Lawyer, to work with the artist and talk with the
USPS to preserve his 9/11 memorial mural project. Judge KPF
asked the Defense lawyer if the destruction of his murals
might not be injurious to the artists' reputation?
The artist proposed recreating his Peter Stuyvesant USPS
murals, reinstalling them at the Peter Cooper, with his existing
murals at that location. Plaintiff requested artist fees and
materials costs to reconstitute the Peter Stuyvesant murals with
his existing murals at the Peter Cooper USPS.
B. 28 US CODE 1498
This statute says "And provided further that before such action
against the United States has been instituted the appropriate
corporation owned or controlled by the United States or the head
of the appropriate department or agency of the government, as
the case may be, is authorized to enter into an agreement with
the copyright owner in full settlement and for the damages
accruing to him by reason of such infringement (or destruction)
and to settle the claim administratively out of available
appropriations."

r
10
C. AN ADMINISTRATIVE SOLUTION TO RESOLVING
THE CLAIM IS INSTITUTED
In November and December 2017, Ms. Doud worked with the
artist to inform the USPS of his plans. The artist's solution
allowed for the murals to be installed without any metal frames
or lights. Their location was balanced against the existing
murals in the interior space of the Peter Cooper USPS.
Meanwhile, the artist communicated with Judge KPF at the
court to keep her informed of the process. Plaintiff informed
Judge KPF that other public art works were being installed in
the East Village community. This included a cross section of
corporate, real estate, public space and Plaintiffs artist
sponsored; works of public art. Judge KPF facilitated a process
for the proper exhaustion of the claim. The artist was affecting a
simple solution to recreate and reinstall the murals. The money
demand was for artists' fees and materials, to reinstall the work.
D. WITHOUT REASON USPS DENYS THE ARTIST
REQUEST TO RECREATE & REINSTALL HIS WORK
After two months without warning and without reason the
USPS terminated the new plans and ceased communication.
Without a second hearing Judge KPF allowed the
governments' claim of sovereign immunity.
E. JUDGE KPF ACCEPTS THE FEDERAL CLAIM OF
SOVEREIGN IMMUNITY WITH NO NEW HEARING
She ignored the failure of the USPS, to cease participation in a
2-month-old administrative solution, toward the resolution of
the claim. Relying on the legally sanctioned and
institutionalized misinterpretation of the word "State", Judge
KPF closed the case.

l>
11

CONCLUSION
Plaintiffs sole concern was for the preservation of his
community based, independently sponsored, work of NYC
public art. The USA, the USPS and the Federal Courts act
blind to the destruction of a public artwork, of recognized
stature by an artist, with a mental disability.
4 ADA DISCRIMINATION
A THE USPS DESTROYED THE ONLY PUBLIC ART BY A
COMMUNITY BASED ARTIST WITH A MENTAL
DISABILITY
Plaintiffs complaint was to recreate and reinstall his murals for
artists' fees and expenses. The USPS refuses to take
responsibility for their mistake. In written communication with
Judge KPF, Plaintiff informed her there were no other public art
project's, in the East Village NYC community, created by an
artist with a mental disability.
B. PLAINTIFF IS ENTITLED TO PARTICIPATE AND NOT
BE DENIED THE BENEFITS OF ANY PROGRAM OR
ACTIVITY CONDUCTED BY THE USPS
On the notice in every Post Office in the United States of
America is a bulletin that says for any reason and without
asking for permission, a person with disabilities can initiate a
law suit in Federal District Court and Section 504 states that
"no qualified individual with a disability in the United States
shall be excluded from, denied the benefits of, or be subjected to
discrimination under" any program or activity that either
receives Federal financial assistance or is conducted by any
Executive agency or the United States Postal Service."

12

CONCLUSION
If an artist can make it in NYC, she or he, can make it anywhere.
Sincerely,

Addison Thompson
Pro Se
1/10/2020

